No. 20-6510

IN THE
SUPREME COURT OF THE UNITED STATES

LAWRENCE W. FORD, PETITIONER

V.

ANITA L. BUDDE, RESPONDENT
PROOF OF SERVICE
I, LA VERNE SIMMONS, do swear or declare that on this date, January 28, 2021,
as required by the applicable rules of the Supreme Court, I have served the enclosed
PETITION FOR REHEARING ON WRIT OF CERTIORIA, and RULE 44
CERTIFICATE, on each party to the above proceeding or that party's noted counsel,
and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Therese M. Shanks, Esq.
Robison, Sharp, Sullivan & Brust
71 Washington Street
Reno, Nevada 89503

I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 28, 2021

